IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT

WALTER OSBORNE,
Appellant,
v.

CASE NO. 5D20-2494

DOUGLAS E. KELLOGG, EDUARDO
AVELLANEDA, AND GABRIEL BURGOS,
Appellees.

DATE: March 23, 2021
BY ORDER OF THE COURT:
Upon consideration that Appellant failed to serve an Initial Brief in
compliance with this Court's Order of February 17, 2021, it is
ORDERED that the above-styled cause is dismissed.

I hereby certify that the foregoing is
(a true copy of) the original Court order.

i

I

SANDRA B. WILLIAMS, CLERK

Panel: Judges Cohen, Wallis and Edwards
cc:
Curtis L. Brown
Walter Osborne

Glenn T. Williams

Ronda Denise Westfall

